                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

       f             OFFICE OF INSPECTOR GENERAL 




                     Response to
                     Congressional Inquiry
                     Regarding the EPA’s
                     Emergency Order to the
                     Range Resources
                     Gas Drilling Company
                     Report No. 14-P-0044                December 20, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Kathlene Butler
                                                     Dan Engelberg
                                                     Johnny Ross
                                                     Genevieve Borg Soule




Abbreviations

DOJ             U.S. Department of Justice
EPA             U.S. Environmental Protection Agency
ISE             Imminent and Substantial Endangerment
OECA            Office of Enforcement and Compliance Assurance
OIG             Office of Inspector General
RRC             Railroad Commission of Texas
SDWA            Safe Drinking Water Act


Cover Photo: 	Outside the Range Resources’ Butler and Teal hydraulic fracturing well sites.
             (EPA OIG photo)



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 	20460
                        U.S. Environmental Protection Agency 	                                           14-P-0044
                                                                                                  December 20, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Response to Congressional Inquiry
We conducted this review in          Regarding the EPA’s Emergency Order to the
response to a congressional
request. We evaluated the
                                     Range Resources Gas Drilling Company
U.S. Environmental Protection
Agency’s (EPA’s) Region 6             What We Found
issuance and withdrawal of an
emergency order under Section        Region 6’s issuance of the emergency order
                                     to Range Resources under Section 1431 of          The EPA withdrew its
1431 of the Safe Drinking Water                                                        emergency order regarding
Act to the Range Resources Gas       the Safe Drinking Water Act, and the region’s
                                                                                       Range Resources hydraulic
Drilling Company, to determine       subsequent enforcement actions, conformed         fracturing operations, but
whether the EPA followed             to agency guidelines, regulations and policy.     continues to monitor the
applicable laws and policy.          The region’s interactions with state officials    situation for evidence of
                                     and other stakeholders were appropriate and       widespread contamination.
Region 6 concluded that a            within Section 1431 guidelines.
gas well owned and operated by
Range Resources in Parker            Laws and guidance do not address withdrawing Section 1431 emergency
County, Texas, either caused or      orders and the EPA used its discretion in withdrawing the emergency order.
contributed to contamination found   The EPA reached an agreement whereby Range Resources agreed to test
in the groundwater. Subsequently,    20 water wells every 3 months for a year to provide information about the
on December 7, 2010, Region 6        presence of more widespread contamination. According to the EPA, the
issued an emergency order            sampling that Range Resources has completed indicates no widespread
instructing Range Resources to       methane contamination of concern in the wells that were sampled in Parker
investigate the groundwater and      County. However, the EPA lacks quality assurance information for the Range
soil in the contaminated area to     Resources’ sampling program, and questions remain about the
determine the cause of the           contamination.
contamination and to take actions
to remediate and prevent further      Recommendations and Planned Corrective Actions
contamination.
                                     We recommend that the Region 6 Regional Administrator (1) collect and
This report addresses the            evaluate the testing results being provided by Range Resources to determine
following EPA themes:                whether the data is of sufficient quality and utility, (2) determine whether an
                                     imminent and substantial endangerment still exists at the original residential
 Making a visible difference in     well involved, (3) inform the affected residents of the present status of the
  communities across the country.    contamination and of any Region 6 planned actions, (4) work with the Railroad
 Taking action on toxics and        Commission of Texas to ensure appropriate action is taken as needed, and
  chemical safety.                   (5) document the costs and resources invested to complete the work included
 Protecting water: A precious       in these recommendations.
  limited resource.
                                     In its official comments and in subsequent meetings, the EPA agreed with
For further information,
                                     and provided corrective actions that address our recommendations. All
contact our public affairs office    recommendations are resolved with corrective actions underway. No final
at (202) 566-2391.                   response to this report is required.

The full report is at:
www.epa.gov/oig/reports/2014/
20131220-14-P-0044.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                           December 20, 2013

MEMORANDUM

SUBJECT:	 Response to Congressional Inquiry Regarding the EPA’s Emergency Order to the
          Range Resources Gas Drilling Company
          Report No. 14-P-0044

FROM:	         Arthur A. Elkins Jr.

TO:	           Ron Curry, Regional Administrator
               Region 6

               Cynthia Giles, Assistant Administrator 

               Office of Enforcement and Compliance Assurance 


This is our report on the U.S. Environmental Protection Agency’s (EPA’s) emergency order to the
Range Resources Gas Drilling Company conducted by the EPA Office of Inspector General (OIG). This
report contains findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

Action Required

All recommendations are agreed to and resolved. Therefore, no final response to this report is needed.
If you wish to provide a final response to this report, it should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper, 

Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or 

Dan Engelberg, Director, Water Program Evaluations, at (202) 566-0830 or engelberg.dan@epa.gov. 

Response to Congressional Inquiry                                                                                           14-P-0044
Regarding the EPA’s Emergency Order to the
Range Resources Gas Drilling Company


                                  Table of Contents 


Chapters
   1    Introduction .......................................................................................................       1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               5     


   2    The EPA Adhered to Policy, but Questions Remain.......................................                                     7


                Emergency Order Met the Two Requirements of SDWA ............................                                      7

                The EPA Concluded That a Gas Well Was the Most Likely
                   Contributor to the Contamination...........................................................                     8

                Range Resources Emergency Order Similar to Other
                   Emergency Orders ................................................................................              12 

                The Region’s Communications with State and Other Stakeholders
                   Adhered to Law, Policies and Procedures .............................................                          13 

                Range Resources Did Not Fully Comply With the Order.............................                                  14 

                Withdrawal of the Emergency Order Was Within
                   the EPA’s Discretion, but Questions Remain ........................................                            16 

                Conclusions .................................................................................................     18     

                Recommendations ......................................................................................            19     

                Agency Response and OIG Evaluation .......................................................                        19 


   Status of Recommendations and Potential Monetary Benefits..............................                                        21 




Appendices
   A    Agency Response to Recommendations.........................................................                               22


   B    Agency Letter to Range Resources..................................................................                        27


   C    OIG Response to Agency Comments...............................................................                            29 


   D    Distribution .........................................................................................................    31 

                                            Chapter 1

                                             Introduction
Purpose
                   This assignment responds to a congressional request the Office of Inspector
                   General (OIG) received from six United States Senators to evaluate the
                   U.S. Environmental Protection Agency’s (EPA’s) issuance and withdrawal of an
                   emergency order under the Safe Drinking Water Act (SDWA). Our objective was
                   to determine whether EPA Region 6’s issuance of an emergency order to the
                   Range Resources Gas Drilling Company under Section 1431 of the SDWA, and the
                   region’s subsequent enforcement actions, conformed to agency guidelines,
                   regulations and policy. We also reviewed the region’s interactions with state
                   officials and other stakeholders, and the EPA’s withdrawal of the emergency order.

Background

                   SDWA Provides the EPA with Emergency Powers

                   Congress established the SDWA to protect the quality of drinking water in the
                   United States. Although most of the SDWA is concerned with ensuring that
                   drinking water meets standards at public drinking water systems, part of the law,
                   including Section 1431, is directed toward protecting drinking water sources from
                   contamination.

                   Section 1431 of the SDWA authorizes the EPA to take immediate action to protect
                   public health when any source of drinking water is, or will be, contaminated when
                   two conditions exist. First, the EPA has information that a contaminant is in or likely
                   to enter a public water system or underground drinking water supply and may
                   present an imminent and substantial endangerment (ISE) to public health. Second,
                   state and local authorities have not acted to protect public health from the ISE.

                   The preventative nature of Section 1431 means that for the EPA to take and
                   enforce a Section 1431 emergency order, it needs neither proof that contamination
                   has already occurred nor proof that the recipient of the order is responsible for the
                   contamination. EPA guidance says that the EPA may act when the ISE is either
                   direct or indirect, and whether the ISE is foreseeable in the near future or present
                   at the time.1

                   Case law has supported the EPA’s authority under the emergency powers
                   provided in Section 1431 to “overlook technological and economic
                   feasibility…unlimited by other constraints, [to] giv[e] paramount importance to

1
    Final Guidance on Emergency Authority under Section 1431 of the Safe Drinking Water Act. September 27, 1991. 


14-P-0044                                                                                                       1
                    the sole objective of the public health.”2 Individuals at both the EPA and the
                    U.S. Department of Justice (DOJ) explained that SDWA Section 1431 gives the
                    EPA the authority to take action to address emergencies proactively, even when
                    the EPA does not have comprehensive information about the scenario. As a result,
                    court opinions and case law have tended to give the EPA deference in these cases.
                    The EPA’s guidance reads:

                             Even though EPA should strive to create a record basis to support
                             its Section 1431 actions, the Regions should recognize that EPA
                             does not need uncontroverted proof that contaminants are present
                             in or likely to enter the water supply or that an imminent and
                             substantial endangerment may be present before taking action
                             under Section 1431. Similarly, EPA does not need uncontroverted
                             proof that the recipient of the order is the person responsible for
                             the contamination or threatened contamination. Courts generally
                             will give deference to EPA’s technical findings of imminent and
                             substantial endangerment.3

                    The EPA guidance says that if the responsible party is not clearly known, an
                    emergency order should be issued to the most likely contributor(s) based on the
                    type of contaminant(s) found as compared to current and past land practices in the
                    area. When the EPA determines that the two Section 1431 conditions are met, the
                    EPA may take the steps necessary to protect public health. As part of an order, the
                    guidance states that the EPA can require that a study be performed to more clearly
                    determine the responsible parties. The EPA may:

                        	 Order those who caused or contributed to the endangerment provide
                           alternative water supplies, at no cost to the consumers (e.g., provisions of
                           bottled water, drilling of new well(s) and connecting to an existing public
                           water system).
                        	 Notify the public of hazards (e.g., door-to-door, posting, newspapers and
                           electronic media).
                         Order studies to determine the extent of the contamination.
                         Order engineering studies to propose a remedy to the endangerment and a
                           timetable for its implementation.
                         Order the halting of the disposal of contaminants that may be contributing
                           to the endangerment.

                    Section 1431 and the EPA guidance do not offer criteria for withdrawing an
                    emergency order. Therefore, the EPA uses discretion to decide when to withdraw
                    an emergency order.




2
     United States v. Hooker Chem. & Plastics Corp.,749 F.2d 968, 988 (2d Cir.1984).

3
     Final Guidance on Emergency Authority under Section 1431 of the Safe Drinking Water Act. September 27, 1991.
 


14-P-0044                                                                                                         2
                 SDWA Advises Consulting With States on Emergency Orders

                 Most states have received authority to implement the SDWA requirements.
                 However, the EPA retains responsibility to oversee drinking water programs by
                 taking actions when states do not. Section 1431 of the SDWA instructs the EPA
                 to consult with the state and local authorities prior to taking enforcement action
                 “to the extent practicable.”

                 The Texas Commission on Environmental Quality is the chief environmental
                 agency for the state of Texas. However, for matters involving the production of
                 oil and gas, the Railroad Commission of Texas (RRC) has regulatory authority.
                 The RRC, through its Oil and Gas Division, regulates the exploration, production
                 and transportation of oil and natural gas. Its statutory roles include preventing
                 waste of the state’s natural resources, protecting the correlative rights of different
                 interest owners and preventing pollution. To prevent pollution of the state’s
                 surface and groundwater resources, the RRC has an abandoned well plugging and
                 abandoned site remediation program. The oil and gas industry partially funds this
                 program through fees and taxes. Within the Oil and Gas Division, the Site
                 Remediation Section, with field offices throughout the state, accepts and
                 investigates complaints of contamination caused by oil and gas production.

                 EPA Policy Requires Press Releases to List Statutes, Risks and
                 Precedents

                 The EPA’s 2007 EPA Policy on Publicizing Enforcement and Compliance
                 Assurance Activities provides guidance on the content of enforcement
                 publications and the proper review process. The policy states that the EPA should
                 not negotiate the content of press releases outside of the agency. It states that the
                 press release should include the statute(s) violated, the environmental and health
                 impacts of the specific pollutants or contaminants involved and whether the case
                 would create national or program precedents. It also states that the relevant press
                 office has ultimate responsibility for final editorial control over the content of
                 national/regional press announcements and is responsible for disseminating them
                 to the media, regions and program offices.

                 A review of the Information Quality Act and subsequent guidelines issued by both
                 the Office of Management and Budget4 and the EPA5 indicates that press releases
                 are exempt. The Information Quality Act does not apply to communications such
                 as press releases.




4
   Office of Management and Budget Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and 

Integrity of Information Disseminated by Federal Agencies; Republication. February 22, 2002.
 
5
   EPA Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and Integrity of Information 

Disseminated by the Environmental Protection Agency. October 2002.
 


14-P-0044                                                                                                            3
            The EPA Investigated a Drinking Water Contamination Complaint and
            Issued an Emergency Order

            In August 2010, a homeowner in Parker County, Texas, complained to Region 6
            that the drinking water well associated with his home had become contaminated
            with natural gas and requested assistance. In a phone call to Region 6, the
            homeowner stated that the well pump malfunctioned because high levels of
            natural gas in the water caused the pump to lose suction. He reported that his
            drinking water was effervescing inside the home, indicating high levels of gas in
            the water. The homeowner indicated that he could set his drinking water on fire to
            illustrate high levels of natural gas in the water at the wellhead. He indicated that
            he had contacted state officials at the RRC, the state arm responsible for
            investigating contamination of drinking water wells, but they had not been able to
            resolve his issues.

            In response to the complaint, on October 26, 2010, Region 6, in consultation with
            the RRC officials, conducted sampling and testing of the air and the well water at
            two residential wells to verify the existence and nature of the contamination.
            Region 6 also identified a nearby gas production well as a potential source and
            collected gas samples for isotopic and compositional analysis from both the gas
            well, operated by Range Resources, and the drinking water wells. The EPA
            conducted the analysis to determine the possible origin of the gases in the
            drinking water and gas wells, and to compare the composition of gas in the well
            water to gas from the production well.

            Region 6 received results from its October sampling and testing on
            November 16, 2010. The testing results prompted the EPA to advise the residents
            at both homes to discontinue use of the well water. The test results showed levels
            of methane above action levels set by USGS (i.e. 10 mg/L, the level at which
            wells should be evaluated for venting and ignition sources should be removed
            from the area). This presented a potential explosion hazard. The test results also
            showed benzene levels above the EPA published maximum contamination levels.
            Based on an isotopic analysis, Region 6 concluded that gas in the groundwater
            and gas from the production well were nearly identical and likely originated from
            the same source. Region 6, therefore, concluded that a gas production well owned
            by Range Resources caused or contributed to the contamination in the
            groundwater. Region 6 provided its test results to officials at the RRC, telling the
            state that the evidence demonstrated an ISE.

            The RRC informed Region 6 that it did not share the EPA’s conclusion that the
            Range Resources gas well caused the drinking water well contamination, but said
            the RRC would continue its own testing and research. Region 6 requested a
            meeting with Range Resources to discuss its results as it related to the gas
            production well. However, Range Resources declined to meet with the region and
            indicated that they would be working with state officials to investigate and resolve
            the issue.



14-P-0044                                                                                       4
                 Based on the evidence collected and its discussions with the RRC in
                 November 2010, Region 6 began coordinating with the EPA’s headquarters to
                 take emergency action under the SDWA. Region 6 issued an emergency order to
                 Range Resources on December 7, 2010, citing that the gas production well either
                 caused or contributed to the contamination in two residential water wells.6 The
                 order required Range Resources to conduct research on the source and extent of
                 contamination, provide drinking water to affected residents, and develop a plan to
                 mitigate contamination in the aquifer.

                 Range Resources did not fully comply with the order, and legal actions between
                 the company and EPA ensued. EPA withdrew the order in March 2012, reaching
                 a nonbinding agreement with Range Resources for additional well testing.

Scope and Methodology
                 We conducted our evaluation in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform our work to
                 obtain sufficient, appropriate evidence to provide a reasonable basis for our
                 findings and conclusions based on our audit objectives. We believe that the
                 evidence obtained provides a reasonable basis for our findings and conclusions
                 based on our evaluation objectives. We conducted our evaluation from July 2012
                 to July 2013.

                 We sought to determine whether Region 6’s issuance, implementation and
                 withdrawal of the emergency order under Section 1431 of the SDWA met all
                 requirements of the Act. We also sought to:

                     	 Determine whether Region 6’s interaction with state officials, EPA’s
                        headquarters and other stakeholders was appropriate and in accordance
                        with Section 1431 guidelines.
                      Determine the applicability of the Information Quality Act to Region 6’s
                        press release concerning its Section 1431 actions.
                      Determine whether Region 6’s Section 1431 actions for Range Resources
                        were compatible to other Section 1431 actions for other violators.
                      Evaluate eight items enumerated in the congressional request letter dated
                        June 19, 2012.

                 To complete our work, we conducted interviews and obtained and reviewed
                 documents and official records. We interviewed staff and officials in the EPA’s
                 Office of Enforcement and Compliance Assurance (OECA), EPA’s Region 6, the
                 DOJ, the RRC and Range Resources. We interviewed homeowners at one
                 contaminated residential well and their attorney. We made site visits to the homes,

6
 Subsequent to the emergency order, the EPA determined that it was unlikely that Range Resources’ gas well
drilling and production activities had caused the contamination in Residential Well 2.


14-P-0044                                                                                                    5
            to the contaminated water wells and to the two Range Resources gas production
            wells. We attempted to interview residents at two other homes where
            contaminated wells were identified, but they did not agree to participate in our
            evaluation. We reviewed the order, administrative record and court documents,
            and assessed evidence surrounding the contamination from the EPA, Range
            Resources and the RRC.

            We compared the Range Resources emergency order with other emergency orders
            the EPA issued between January 1, 2009, and December 31, 2011. We used the
            EPA’s Enforcement and Compliance History Online EPA enforcement cases search
            tool to query all SDWA Section 1431 orders issued during the 3-year period. This
            search returned 40 orders, the overwhelming majority of which were against public
            water systems and not relevant for comparison. Of the 40 orders, we identified two
            cases for comparison: one involved a company that was also part of the oil and gas
            industry, and the other involved a single company allegedly contaminating one or
            more private citizen water wells. We compared the elements of the Range
            Resources order with these two orders.




14-P-0044                                                                                      6
                                              Chapter 2

    The EPA Adhered to Policy, but Questions Remain 

                  The EPA’s issuance of the emergency order to Range Resources under SDWA
                  Section 1431 and Region 6’s subsequent enforcement actions conformed to
                  agency guidelines, regulations and policy. The Range Resources order was similar
                  to two other emergency orders the EPA issued in the past. The region’s
                  interactions with the RRC and other stakeholders followed Section 1431
                  guidelines. Laws and guidance do not address withdrawing Section 1431
                  emergency orders, so the EPA withdrew the order based on its discretion. Upon
                  withdrawal, the EPA reached a non-binding agreement with Range Resources for
                  additional testing in the area. According to the EPA, the sampling that Range
                  Resources completed in wells in Parker County, Texas, indicated no widespread
                  methane contamination at action levels7 (i.e., one well of 20 showed methane
                  above action levels, and a subsequent sample at this well was below the limit).
                  However, the EPA lacks quality assurance information for Range Resources’
                  sampling program, and questions remain regarding the presence of contamination.

Emergency Order Met the Two Requirements of SDWA
                  Section 1431 requires two conditions for the EPA to take emergency enforcement
                  action. Both existed at the time Region 6 issued the emergency order. First, the
                  EPA concluded that two residential drinking water wells were contaminated with
                  methane, benzene and other contaminants. Second, test results showed methane
                  levels that could accumulate in the affected homes and potentially cause an
                  explosion.

                  The Contamination Warranted an Emergency Order

                  The EPA was justified in concluding that the contamination in the residential
                  wells constituted an ISE based on the data the EPA collected. The EPA water and
                  gas samples collected from the residential water wells were contaminated. Test
                  results on November 16, 2010, showed the presence of chemical contamination in
                  both wells. The contamination levels indicated a risk to a drinking water source—
                  the aquifer and the wells drawing from it.

                  The U.S. Department of the Interior advises owners of wells with methane
                  concentrations greater than 10 milligrams per liter to consider removing ignition
                  sources from the immediate area to prevent the possibility of an explosion. The
                  EPA used this standard to conclude that the concentration of methane in

7
  i.e., 10 milligrams per liter, the level at which wells should be evaluated for venting and ignition sources should be
removed from the area. 


14-P-0044                                                                                                              7
                    residential water wells presented a risk of explosion. Data showed dissolved
                    methane at one residential water well reaching twice this limit: 20.1 milligrams
                    per liter. Data also showed benzene in one residential well at 6.84 micrograms per
                    liter. This level is above the maximum SWDA contamination standard set for
                    public water supplies of 5 micrograms per liter. In addition, results indicated the
                    presence of ethane, propane, toluene and hexane.

                    The methane in the wells presented an explosion hazard, and benzene presented
                    health hazards. Methane poses risks of explosion and fire. In large concentrations
                    in air, it may pose a risk of asphyxiation. Benzene is a known human carcinogen.
                    It can cause anemia, neurological impairment and other adverse health impacts.
                    Hexane, propane, ethane and toluene may also cause adverse health impacts if
                    inhaled or ingested. The residences housed nine people, including adults and
                    young children. Region 6 staff concluded that the levels of methane and benzene
                    in the water posed an imminent and substantial endangerment to the residents.

                    State and Local Authorities Did Not Plan to Act Immediately

                    Evidence shows that EPA correctly determined that the RRC did not plan to act
                    immediately. Region 6 officials and staff communicated with the RRC officials
                    and staff while they were investigating the contamination, and while the EPA was
                    considering taking action. The EPA asked the RRC if they planned to take action,
                    and the RRC said they were not prepared to do so. State laws did not authorize
                    officials at the Texas Commission on Environmental Quality to act because the
                    contamination involved gas and oil production, which is outside of their
                    jurisdiction. SDWA Section 1431 and the EPA’s guidance8 do not define how to
                    determine whether actions will happen in a timely fashion. Therefore, based on
                    their assessment of the explosion risk and the RRC response to the EPA’s
                    questions on taking action, the EPA concluded that appropriate state and local
                    officials had not taken sufficient action to address the endangerment and did not
                    intend to take timely action.

The EPA Concluded That a Gas Well Was the Most Likely Contributor
to the Contamination
                    The information that the EPA had in its possession was sufficient for it to
                    conclude that the gas production well was the most likely contributor to the
                    contamination of the aquifer that led to the ISE. It was the closest potential source
                    of contamination to the contaminated drinking water well and Range Resources
                    drilled the well shortly before the homeowners first reported the contamination.
                    Moreover, the EPA data showed the composition of the gas contaminating the
                    water wells to be nearly identical to that of the gas in the production well, and that
                    the gas from both types of wells was likely from the same source.


8
     Final Guidance on Emergency Authority under Section 1431 of the Safe Drinking Water Act. September 27, 1991. 


14-P-0044                                                                                                        8
                    The EPA met the legal burden required for Section 1431 when it issued the
                    emergency order against Range Resources. Section 1431 does not expect the EPA
                    to delay acting to address an ISE until it is certain of the source of the
                    endangerment. Rather, the EPA guidance states:

                            In cases where the responsible party is not clearly known, the order
                            should be issued to the most likely contributor(s) based on the type
                            of contaminant(s) found in … [the] USDW [underground source of
                            drinking water] compared to current and past land practices in the
                            area.9

                    The Location and Timing of the Gas Well Operation Coincided with
                    Well Contamination

                    The location and timing of Range Resources gas well drilling and operations
                    contributed to the EPA’s determination that a nearby gas production well caused
                    or contributed to well contamination. The EPA identified two gas production
                    wells close to the two contaminated water wells, both operated by Range
                    Resources. These wells went into production in August 2009, and were the only
                    two natural gas wells within 2,000 feet of the contaminated residential water
                    wells. The gas production wells both included a vertical bore and a horizontal
                    fracture bore. The residential wells were both within 500 feet in horizontal
                    distance from the fractured track of the horizontal section of the gas production
                    well bore and approximately 2,300 feet from the vertical bore.

                     Figure 1. Approximate Location of Gas Production Wells and 

                     Contaminated Residential Wells





                    Source: EPA Region 6.



9
     Final Guidance on Emergency Authority under Section 1431 of the Safe Drinking Water Act. September 27, 1991. 


14-P-0044                                                                                                        9
            The EPA relied on the coincident timing of the gas production well drilling and
            operations and the detection of the water well contamination to provide additional
            evidence of the connection. A professional drilling service drilled Residential
            Well 2 in August 2002 and Residential Well 1 in April 2005. The homeowners
            primarily used the water well for human consumption and landscape irrigation.
            Neither the homeowners nor the well drilling services observed or reported that
            either residential well contained any noticeable natural gas at the time of drilling.
            The water wells produced drinking water for years without signs of natural gas.
            In December 2009, approximately 4 months after Range Resources placed the gas
            wells into production, the homeowners at Residential Well 1 began noticing signs
            of natural gas. In May 2010, the homeowners at Residential Well 2 began
            noticing signs of natural gas.

            Records indicate that Range Resources began drilling the gas production well in
            June 2009. The hydraulic fracture operation was completed and the well began
            gas production in August 2009. The homeowners reported noticing that drinking
            water started to effervesce (give off bubbles as gas escaped) in late 2009 and early
            2010. In July 2010, the homeowners at Residential Well 1 reported that methane
            caused their pump to malfunction. At that point, the homeowners determined that
            the gas in the water well was flammable and contacted state officials and the
            EPA. This sequence of events contributed to Region 6’s conclusion that the gas
            production well contributed to the contamination of the water well.

            Isotopic Analysis Indicates Gases Nearly Identical and
            Likely From the Same Source

            Based on data it collected, Region 6 concluded that the presence of gas in the
            residential water wells was likely due to impacts from gas development and
            production activities in the area. Through a method known as isotopic
            fingerprinting and compositional analysis, the region determined that the gas in
            the water samples and gas from the production wells were likely from the same
            source and were identical within analytical error. Both gases contained the same
            components in the same relative concentrations.

            Isotopic fingerprinting determines the ratio of different isotopes of a particular
            element in an investigated material. Methane produced in the ground varies in the
            relative concentrations of carbon 12 and carbon 13 isotopes. The ratio of these
            isotopes provides an indication of the source of the natural gas. The isotopic
            fingerprint analysis of methane in the water and gas samples Region 6 obtained
            on October 26, 2010, showed that the isotopic values from the residential water
            wells and the gas production well were thermogenic in nature and likely from the
            same source. In addition, the compositional analysis indicated that both gases
            contain significant amounts of heavier hydrocarbon components, and that the
            gases were identical within analytical error; the hydrocarbon portion of each gas
            contains the same components.




14-P-0044                                                                                      10
            Region 6 concluded that gases from the production wells and contaminated
            residential wells were likely from the same source. Moreover, samples taken from
            other wells in the area had a different isotopic profile. Region 6 concluded that the
            gas produced by Range Resources’ gas well was most likely the source that was
            contaminating the aquifer and the drinking water wells. Figure 2 shows plotted
            isotopic values of gases from the gas production well and the residential water
            well along with gas samples from other nearby wells.

            Figure 2. Isotopic Fingerprinting of Gas from Contaminated Residential and
            Gas Production Wells




            Source: EPA Region 6.


            EPA Evidence Led to Emergency Order Against Range Resources

            Based on the evidence the EPA uncovered regarding the nature and source of the
            contamination in the residential wells, the EPA determined that a Range
            Resources gas production well was the most likely contributor to the
            contamination. The EPA drew on its authority in SDWA Section 1431 to issue an
            emergency order to Range Resources to protect an underground source of
            drinking water from contamination. The EPA’s emergency order outlined steps to
            investigate and remediate the contamination identified. Specifically, the
            emergency order directed the company to take the following steps:
                
                 Provide drinking water for the consumers of the contaminated wells.
                 Conduct research into potential contamination of drinking water supplies
                    within 3,000 feet of the gas well.


14-P-0044                                                                                     11
                    Conduct soil gas and indoor air concentration analysis at the houses served
                      by the contaminated well.
                    Identify and repair the contamination pathways.

               OECA staff told us that after the order was issued, the EPA determined that it was
               unlikely that Range Resources’ gas well drilling and production activities had
               caused the contamination in Residential Well 2. Subsequent discussions about
               contamination focused only on Residential Well 1.

Range Resources Emergency Order Similar to Other
Emergency Orders
               Our review of recent emergency orders revealed two recent situations similar to
               that of the Range Resources case. Both were situations where the EPA issued an
               emergency order in response to what it believed to be contamination threatening
               drinking water sources by a company.

                   	 The first instance was the East Poplar Oil Field Section 1431 Order.
                      This situation involved multiple companies drilling for oil in Montana.
                      Region 8 determined that these activities had contributed to contamination
                      of the groundwater. Although the public water system was not yet
                      contaminated, Region 8 determined that there was an ISE. This is unlike
                      the Range Resources case in that Region 6 believed that the private well
                      was already contaminated and that there was an imminent potential of the
                      well exploding.10

                   	 The second instance was the Kenneth Brockett Farm Section 1431 Order.
                      This case was similar to the Range Resources case because it involved a
                      single company contaminating a private well. It was based on evidence
                      that a dairy farm was contaminating a private well with fecal coliform,
                      E. coli and ammonia at levels that presented an ISE.11

               The EPA imposed similar requirements in all three cases. It ordered the
               companies to monitor the contamination in public water supplies and private
               wells, and to develop a mitigation or remediation plan to correct the situation.
               All three orders also directed companies to provide an alternate source of water
               for contaminated wells.




10
   East Poplar Oil Field, Docket No. SDWA-08-2011-00126, 12/16/10.
http://yosemite.epa.gov/oa/rhc/epaadmin.nsf/Filings/5BDBB00D74503113852578010020F7FA/$File/SDWA08201

10006%20AO.pdf.
 
11
   Kenneth Brockett Farm, Docket No. SDWA-03-2011-0205-EO, 6/28/11. 

http://www.epa.gov/reg3wapd/pdf/public_notices/BrockettEmergencyOrder.pdf. 



14-P-0044                                                                                         12
The Region’s Communications With State and Other Stakeholders
Adhered to Law, Policies and Procedures
            Region 6’s communications with the state satisfied the requirements of the
            SDWA its communications with the public and other relevant stakeholders
            adhered to agency policy and procedures. The region coordinated with its state
            partner, the RRC, as required under Section 1431. Region 6’s press release
            regarding the Range Resources Section 1431 Emergency Order followed
            procedure in both content and distribution. The content of the release followed the
            EPA’s policy and was similar to other press releases. The timing of the
            distribution followed agency procedures. Press releases are exempt from the
            Office of Management and Budget and the EPA’s Information Quality Act
            guidelines. Therefore, these guidelines were not relevant for comparison.

            The EPA Regularly Interacted With and Communicated With Its
            State Partners

            The EPA followed Section 1431 by regularly consulting with the RRC prior to
            taking enforcement action. According to Region 6 documents, Region 6 staff
            consistently coordinated by phone and email with the RRC staff from August to
            December 2010 to discuss the investigation of the well water contamination and
            the issuance of the emergency order. Our review of records indicated that between
            August and October 2010 Region 6 staff had seven email exchanges with RRC
            staff located at the Abilene, Texas, field office. Between September and October
            2010, Region 6 staff exchanged seven emails with the RRC Site Remediation
            office in Austin, Texas. This email traffic was concerning the contaminated well
            water.

            The RRC staff told us that Region 6 staff coordinated with them via email and
            conference calls in an effort to collect samples from the gas and water wells and
            to discuss sampling methods. Subsequently, Region 6 and the RRC held a
            conference call to discuss the sampling method for the October 21, 2010,
            sampling. Region 6 and RRC staff visited the site and worked cooperatively in
            collecting gas and water samples. In November, Region 6 sent its test results of
            the October samples to the RRC staff. In addition, email traffic showed that
            Region 6 coordinated with the RRC to discuss the pending emergency order.
            Prior to issuing the order to Range Resources, Region 6 discussed the contents of
            the emergency order with the RRC.

            Press Release Conformed to Requirements

            The Region 6 press release regarding the Range Resources Section 1431
            Emergency Order followed required procedure in both content and distribution.
            The region followed the typical procedures for distributing the press release to the
            public. The EPA issued the press release on December 7, 2010, the day it issued
            the emergency order. The region issued its press release 11 minutes prior to


14-P-0044                                                                                     13
            sending the order to Range Resources, which was not typical, but also not
            specifically against any policy provision. However, Region 6 has stated that
            Range Resources had knowledge of the order prior to its issuance on December 7,
            2010. The EPA requested a meeting with Range Resources to discuss the
            impending order, which Range Resources declined. However, according to
            Region 6 enforcement personnel and Range Resources, the RRC provided Range
            Resources with details of the order prior to the EPA’s issuing the order.

            The contents of the release adhered to EPA policy and Region 6 followed EPA
            procedures in ensuring review and concurrence from headquarters. Additionally,
            the content was similar to other enforcement press releases we reviewed. The
            press releases for the two other Section 1431 cases that we reviewed also included
            additional information beyond the case facts. The EPA press personnel indicated
            that the agency does this to provide context for the enforcement action. They also
            indicated that this practice follows Associated Press standards. Finally, our review
            of the Information Quality Act and subsequent guidelines issued by both the
            Office of Management and Budget and the EPA found that press releases are
            exempt from the act; therefore, we did not assess EPA’s Range Resources press
            release against these criteria.

            The EPA Informed Citizens Groups About the Order

            The former Region 6 Administrator informed environmental and citizen groups of
            the order and the associated press release after the region issued the two
            documents. Some members of these groups had shown interest in oil and gas
            issues in the state and had attended prior meetings with Region 6. A review of the
            evidence showed that this communication occurred after the region issued its
            press release and that it is not out of the ordinary for the EPA to inform interested
            parties of press releases after they are released. Although OECA’s communication
            policy restricts discussions concerning press releases and administrative orders
            when they are in draft form, it places no such restrictions once they are issued.

Range Resources Did Not Fully Comply With the Order
            Range Resources contended that the order was factually and legally
            unsupportable. In its response to the emergency order, Range Resources said that
            the company’s investigation indicated that natural gas had been present in this
            aquifer long before Range Resources’ production activities and was likely
            naturally occurring migration from several other shallow gas zones immediately
            below the aquifer. However, Range Resources responded to the December 2010
            order by indicating that they had offered to provide water to the affected well
            owners. Range Resources did not comply with the other elements of the order.

            Range Resources emphasized that the company drilled the gas production wells
            into the Barnett Shale formation, more than a mile below the aquifer from which
            the residential water well was drawing water. They said this demonstrated that the


14-P-0044                                                                                     14
            depth of the gas well’s horizontal bore was vertically too far below the maximum
            water well depth to contaminate it with gas from the Barnett Shale. However,
            Region 6 countered by offering evidence from scientific literature suggesting that
            even at greater depths deep production wells may affect water wells in a shallow
            aquifer. Range Resources met with Region 6 staff on December 15, 2010, to
            discuss the emergency order, but Range Resources did not agree to comply with
            the EPA’s order.

            Subsequent Federal, State and Legal Actions Questioned Cause of
            Contamination

            Several legal actions between the EPA and Range Resources regarding the
            contamination ensued and were ongoing between January 2011 and March 2012.
            On January 19, 2011, the RRC held a hearing to make its own determination
            about whether Range Resources caused the contamination. In contrast to the EPA
            guidance concerning emergency orders, the RRC needed definitive proof that a
            direct source was causing the contamination in order to take action. When we
            asked staff/officials of the RRC what sort of evidence RRC required to determine
            if a direct connection existed, they told us that they did not know. They said the
            RRC has never had a case where they found a direct connection between an oil or
            gas well and a drinking water well.

            In this case, the Texas Railroad Commissioners found that the Range Resources
            gas wells were not causing or contributing to the contamination of any Parker
            County wells. Subsequent to this RRC finding, Range Resources ceased
            complying with the two parts of the EPA emergency order to which it had agreed:
            (1) it stopped providing alternate water to the one home where it had been doing
            so, and (2) removed the explosivity monitor it had installed in the home. The EPA
            disagreed with the finding reached by the state at the RRC hearing. In addition,
            the agency had collected additional information supporting its claim that Range
            Resources’ gas well caused the contamination.

            The EPA Filed Suit to Enforce the Order and Range Resources Filed
            Judicial Review

            The DOJ filed an action (a complaint) on January 18, 2011, in the U.S. District
            Court for the Northern District of Texas to require Range Resources to comply
            with the order, among other things. This action did not receive a ruling because,
            on January 20, 2011, Range Resources filed an action seeking judicial review of
            the order in the U.S. Court of Appeals for the Fifth Circuit. The District Court
            issued a stay of the DOJ action to enforce the order pending the outcome of the
            Court of Appeals’ ruling on Range Resources’ action seeking judicial review.




14-P-0044                                                                                   15
Withdrawal of the Emergency Order Was Within the EPA’s Discretion,
but Questions Remain

            The EPA’s withdrawal of the emergency order did not violate any regulation or
            policy. Because SDWA Section 1431 and the EPA’s guidance do not provide
            criteria or a process for withdrawing Section 1431 emergency orders, EPA
            officials exercised discretion in withdrawing it.

            The EPA and Range Resources began discussions to resolve the situation outside
            of the courts and came to an agreement in March 2012. As such, also in March
            2012, EPA withdrew the order, the DOJ withdrew its action seeking to enforce
            the order in District Court and Range Resources withdrew its action seeking
            judicial review of the order in the Court of Appeals before the Court of Appeals
            ruled.

            Region 6 and OECA staff and officials cited several reasons for withdrawing the
            order. First, the EPA wanted to reduce the costs and legal risks associated with the
            ongoing court cases. In addition, an EPA official indicated that the EPA believed
            that the risk faced by the residents at the well where contamination had first been
            found was reduced because the residents had obtained water from a separate
            source and were no longer using the well. Finally, the EPA was able to obtain
            Range Resources’ agreement to participate in a national agency study of the
            relationship between hydraulic fracturing and drinking water contamination.
            Range Resources also agreed to sample 20 water wells in Parker County every
            3 months for a year if the EPA withdrew the order.

            The EPA Perceived High Litigation Risk and Cost

            Senior OECA and Region 6 officials indicated to us they were willing to settle the
            case because it was more complicated than they had anticipated. EPA leadership
            determined in 2012 that although they still believed the statute supported the
            EPA’s actions, the case with Range Resources required more resources than
            anticipated because the judge had called for the review and consideration of
            additional evidence not ordinarily included in such cases.

            An OECA official told us that enforcing the order in the courts is usually a simple
            process because Section 1431 does not require absolute proof of contamination or
            cause. A senior DOJ attorney who worked on the case said that he believed that
            the emergency order was sufficient and could have been enforced through the
            courts. The EPA’s Assistant Administrator for OECA also told the OIG that she
            was “very confident” in the enforcement case. Both the DOJ and OECA officials
            said that the EPA had enough evidence and support to enforce the order. Further,
            they explained that Congress designed the existing statutes to protect people;
            these statutes give the EPA the authority to take action to address emergencies, so
            court opinions and case law have tended to give the EPA deference.



14-P-0044                                                                                    16
            However, the EPA believed its prospects in this case were uncertain. OECA
            officials told us that although they believed they were on firm ground there was
            always a risk that the judge could rule against the EPA. If that happened, it would
            risk establishing case law that could weaken the EPA’s ability to enforce
            Section 1431 emergency orders in the future.

            Because the court was requiring additional evidence beyond that provided in the
            EPA’s administrative record, EPA officials said they would have to gather
            additional evidence and expert witness testimony at additional cost. As a result,
            OECA senior officials said that was not an efficient use of agency resources.

            The EPA Believed the Risk to Homeowners Had Been Reduced

            In interviews, an OECA official indicated to us that a factor that influenced the
            withdrawal decision was the belief that the risk faced by users of the remaining
            residential well covered by the emergency order had lessened since they issued the
            emergency order in 2010. The homeowner who owned the well of primary concern
            had begun purchasing water from an alternate source and was no longer using the
            contaminated well. Moreover, in responding to our preliminary findings, OECA
            officials explained they also believed that the risk had diminished because “to the
            best of our knowledge, explosivity limits had not been reached” in any of the
            households where Range Resources briefly installed monitoring devices.

            Range Resources Agreed to Conduct Further Research and Sampling,
            but Questions About Data Quality and Contamination Remain

            Another reason for withdrawing the emergency order was that in 2012 the EPA
            had begun discussions with Range Resources that resulted in a non-binding
            agreement being reached in the spring of 2012. Under the agreement, Range
            Resources agreed to participate in the EPA’s national study of drinking water
            effects from hydraulic fracturing once the EPA withdrew the order. Range
            Resources also agreed to test the water from 20 wells near its gas production well
            in Parker County for a year.

            The EPA said that Range Resources’ hydraulic fracturing facilities and
            operational information would make a valuable contribution to the study. Prior to
            reaching this agreement, Range Resources had indicated that they would not
            allow the EPA access to their facilities or participate in the study as long as the
            emergency order remained. However, as part of the agreement, Range Resources
            agreed to allow the EPA access to their gas facilities in Pennsylvania and would
            provide operational information to the agency. As of August 2013, the EPA and
            Range Resources had not agreed on the terms of Range Resources’ participation.
            A senior EPA official said that the outcome of ongoing discussions between
            Range Resources and the EPA was uncertain.




14-P-0044                                                                                    17
            Range Resources also agreed to test 20 wells near the gas well every 3 months for
            a year, and the EPA said that the 20 wells were close enough to the gas well that
            sample results would indicate whether there is a wider contamination problem.
            Sampling these wells would show whether there was an immediate risk to
            individual homeowners not included in the emergency order.

            According to the EPA, the sampling that Range Resources has completed
            indicates no widespread methane contamination above action levels in the wells
            that were sampled in Parker County (only one well of 20 showed methane above
            that level, and a subsequent sample at this well was below that level). However,
            the agreement for testing did not include other elements of the original emergency
            order directed toward characterizing the ISE, such as testing the soil in the area of
            the contamination, conducting indoor air monitoring, conducting a geographical
            survey and defining contamination pathways. OECA managers accepted this
            partial solution because Range Resources would not voluntarily conduct these
            elements of the order, and they judged that the EPA could not spare the resources
            to continue enforcement through the courts.

            In addition, the EPA lacks quality assurance information for Range Resources’
            sampling program, and questions remain about the presence of contamination.
            We identified two limitations with the approach taken. First, the sampling by
            Range Resources excluded one of the two wells where contamination was first
            identified in 2010. According to both the EPA and Range Resources, this was due
            to an ongoing lawsuit between the company and the homeowner. Second, Range
            Resources, via its attorney’s March 30, 2012, letter, committed to sample the
            private water wells in accordance with EPA-sanctioned test methods. However,
            the EPA did not review or approve Range Resources’ sampling protocol, nor did
            it review or approve the data collection and analytical methods during the course
            of the study.

            In our draft report, we stated that the EPA should have an oversight role in Range
            Resources’ sampling program. We believe this is important to ensure the validity
            and reliability of the data that the EPA is using to evaluate whether additional
            contamination of drinking water sources exists. Subsequent to the issuance of our
            draft report, EPA reviewed Range Resources’ quarterly sampling data and
            determined that the data lacked some of the required quality assurance information.
            As a result, in an August 22, 2013, letter to Range Resources’ attorney (see
            Appendix B), a Region 6 enforcement chief requested that Range Resources
            provide to Region 6 information on Range Resources’ quarterly sampling, such as
            field results and sampling notes, sampling locations, sampling methods, and chain
            of custody records for sample results.

Conclusions
            Region 6 and EPA headquarters met all requirements of Section 1431 of the
            SDWA in issuing the emergency order to Range Resources and in communicating


14-P-0044                                                                                     18
            with the public and stakeholders. In addition, since SDWA Section 1431 and the
            EPA’s guidance do not provide criteria for withdrawing the emergency order, the
            EPA’s use of discretion in withdrawing the order was allowed. The EPA
            withdrew the order because an agreement with Range Resources was underway;
            the costs and risks of litigating this particular case were likely to be very high and
            the needed short-term benefits would be low, if any; and immediate human health
            risks were believed to have been addressed.

            One matter that led the EPA to issue the emergency order was addressed—Range
            Resources agreed to perform additional tests near the wells. However, other issues
            remain. Although EPA officials believe that current residents are not presently at
            risk, the overall risk faced by current and future area residents has not been
            determined. We believe that the EPA needs to implement cost-effective steps to
            better gauge the risk and document and disseminate its findings to affected
            residents. The EPA should oversee the sampling Range Resources agreed to
            perform and conduct its own sampling at any locations it suspects may be
            contaminated that are not contained in Range Resources’ sample. The EPA should
            also provide homeowners with information about any contamination at their
            homes and work with the RRC to take corrective actions.

Recommendations
            We recommend that the Regional Administrator, Region 6:

               1.	 Collect and evaluate the testing results being provided by Range Resources
                   to determine whether the data are of sufficient quality and utility.

               2.	 Using quality data collected and analyzed, determine whether an ISE still
                   exists at the original residential wells that prompted the emergency order
                   and at other wells where Range Resources has identified contamination.

               3.	 Advise residents at sites of evaluated wells of the present status of the
                   contamination and of any Region 6 planned actions.

               4.	 As needed, work with the RRC to ensure appropriate action is taken to
                   respond to any ISE at the sites where contamination was identified. If the
                   data and information available to Region 6 indicate no ISE, document and
                   communicate that decision.

               5.	 Document the costs and resources invested to complete the work included
                   in these recommendations.

Agency Response and OIG Evaluation
            We received a response to the draft report on September 3, 2013. In the written
            response, the agency agreed with and provided corrective actions that address


14-P-0044                                                                                       19
            recommendations 3, 4 and 5. These recommendations are resolved with corrective
            actions underway.

            In a meeting to discuss the agency’s comments on our report and response to the
            recommendations, we sought clarification on recommendations 1 and 2.
            Specifically, for recommendation 1, the OIG requested that the agency commit to
            evaluate the information that it receives, and take appropriate actions should it
            determine that the data are not sufficient for it to reach a conclusion concerning
            the level of contamination of the underground source of drinking water. EPA
            agreed that it will take appropriate steps should any of the information it receives
            indicate a potentially significant data quality concern.

            For recommendation 2 the OIG requested that the agency commit to taking action
            should the data collected indicate ISE to other drinking wells in the involved area.
            EPA agreed that should any of the sampling data provided to the EPA by Range
            Resources reveal ISEs to other drinking wells in the involved area, the EPA will
            take appropriate action by the end of the first quarter of fiscal year 2014. Based on
            our discussions and agreements with the EPA, recommendations 1 and 2 are
            resolved and open with corrective actions underway.




14-P-0044                                                                                     20
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                           Subject                            Status1      Action Official           Date      Amount      Amount

     1       19     Collect and evaluate the testing results being              O       Regional Administrator,    12/31/13
                    provided by Range Resources to determine                                  Region 6
                    whether the data are of sufficient quality and utility.

     2       19     Using quality data collected and analyzed,                  O       Regional Administrator,    12/31/13
                    determine whether an ISE still exists at the original                     Region 6
                    residential wells that prompted the emergency
                    order and at other wells where Range Resources
                    has identified contamination.

     3       19     Advise residents at sites of evaluated wells of the         O       Regional Administrator,    12/31/13
                    present status of the contamination and of any                            Region 6
                    Region 6 planned actions.

     4       19     As needed, work with the RRC to ensure                      O       Regional Administrator,    12/31/13
                    appropriate action is taken to respond to any ISE at                      Region 6
                    the sites where contamination was identified. If the
                    data and information available to Region 6 indicate
                    no ISE, document and communicate that decision.

     5       19     Document the costs and resources invested to                O       Regional Administrator,    3/31/14
                    complete the work included in these                                       Region 6
                    recommendations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




14-P-0044                                                                                                                                        21
                                                                                     Appendix A

             Agency Response to Recommendations

                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                               1200 PENNSYLVANIA AVENUE, N.W.

                                   WASHINGTON, D.C. 20460 


                                           September 3, 2013


MEMORANDUM


SUBJECT:       Response to the Office of Inspector General Draft Report: “Response to
               Congressional Inquiry Regarding the EPA’s Emergency Order to the Range
               Resources Gas Drilling Company,” dated July 18, 2013, Project No. OPE-FY12-
               0019

FROM:          Ron Curry
               Regional Administrator
               Region 6

               Cynthia Giles
               Assistant Administrator
               Office of Enforcement and Compliance Assurance

TO:            Carolyn Copper
               Assistant Inspector General
               Office of Program Evaluation

Thank you for the opportunity to respond to the draft findings and recommendations presented in
the Office of Inspector General (OIG) Draft Report, “Response to Congressional Inquiry
Regarding the EPA’s Emergency Order to the Range Resources Gas Drilling Company.” We
appreciate the OIG’s careful consideration of this matter and agree with your conclusion that
EPA’s issuance of the emergency order (order) was supported by law and fact, and that our
exercise of discretion to resolve the matter was consistent with all applicable rules and policies.

In particular, the Draft Report finds that EPA satisfied all requirements of Section 1431 of the
Safe Drinking Water Act, 42 U.S.C. § 300i, in issuing the order to Range Resources, and that
issuance of the order was supported by the information in the Agency’s possession, the location
and timing of Range Resources’ gas well drilling and gas production activities, and EPA’s
isotopic analysis. In addition, the Draft Report concludes that the order issued to Range
Resources was similar to other recent Safe Drinking Water Act emergency orders, and that
EPA’s communications with the State and other stakeholders adhered to applicable law, policies,
and procedures. The Draft Report also concludes that EPA consistently coordinated with the


14-P-0044                                                                                       22
Railroad Commission of Texas (Railroad Commission) prior to the order’s issuance. Finally, the
Draft Report finds that withdrawal of the order was within EPA’s appropriate discretion and that
the resolution of the matter did not violate any regulation or policy. We think that these
conclusions are well supported and we agree.

While we agree with the overall conclusions of your review, there are a few minor places where
the Draft Report is unclear or where the information differs from our understanding of the
specific facts. We are attaching a list of these instances, along with suggested language to clarify
or improve accuracy, for your consideration.


Responses to Recommendations

We appreciate the OIG’s recommendations. Withdrawal of the order and resolution of the related
federal litigation allowed the Agency to shift its focus in this particular matter towards a joint
effort on the science and safety of energy extraction. Pursuant to its attorney’s March 30, 2012
letter, Range Resources indicated its intent to conduct a year-long sampling effort (quarterly
sampling events) in accordance with EPA-sanctioned test methods. We are committed to
ensuring that all data and related information collected by Range Resources as part of its
quarterly sampling events and provided to EPA are shared with the Railroad Commission, which
is the lead state agency charged with overseeing oil- and gas-related activities in Texas.
Furthermore, we will discuss the OIG’s recommendations with the Railroad Commission and
offer whatever assistance the Railroad Commission may require in carrying out its oversight
functions in this area.

Recommendation 1: On August 22, 2013, we sent the attached letter to Range Resources’
attorney regarding quality assurance information related to its quarterly sampling events. Upon
further review of Range Resources’ quarterly sampling data, we determined that the data
contained some quality assurance information but lacked other such data. As described in our
August 22 letter, we identified certain quality assurance information that appeared to be lacking
and requested that Range Resources provide such additional information. The letter also
requested that as part of its response, Range Resources confirm that it has submitted all
information related to its quarterly sampling events. We will promptly share any additional
information that we receive from Range Resources regarding its quarterly sampling events with
the Railroad Commission.

Recommendation 2: Since EPA took samples in 2010 that ultimately led to the issuance of the
order, circumstances have changed. Based on information available to the agency, the one
private water well that was of primary concern has been disconnected from the home thereby
addressing explosivity concerns, and the well is no longer used as a source of drinking water. In
addition, only one of the approximately 80 water well samples taken by Range Resources
identified methane above the action level of 10 milligrams per liter (mg/L), which is the level at
which the U.S. Geological Survey (USGS) recommends having water wells evaluated for
possible venting (the subsequent quarterly sample taken from this well identified methane below
10 mg/L). Importantly, EPA retains authority to take action in the future should circumstances




14-P-0044                                                                                         23
change and the Railroad Commission fails to act as the lead state agency charged with
overseeing oil- and gas-related activities in Texas.

Furthermore, we respectfully suggest that this recommendation is beyond the scope and purpose
of this investigation, which was described on page five of the Draft Report.

Recommendation 3: We have taken appropriate action with respect to Range Resources’
analyzed quarterly sampling data by sharing it with the Railroad Commission, which is the lead
state agency charged with overseeing oil- and gas-related activities in Texas. Our understanding
is that it is the Railroad Commission’s practice to notify water well owners when the State
possesses data that suggests contamination levels of potential concern. As noted above, we will
promptly share any additional information that we receive from Range Resources regarding its
quarterly sampling events with the Railroad Commission.

Recommendation 4: We have taken appropriate action with respect to Range Resources’
analyzed quarterly sampling data by sharing it with the Railroad Commission. The analyzed
quarterly sampling data submitted by Range Resources indicate that there is not widespread
groundwater contamination of concern in the wells that were sampled in Parker County. As
discussed above, only one of the approximately 80 water well samples taken by Range
Resources identified methane levels above the 10 mg/L level identified by USGS, with the
subsequent quarterly sample from that well identifying methane below 10 mg/L. We have shared
these data with the Railroad Commission for them to follow up to ensure that any elevated
methane levels do not pose a concern. We will promptly share any additional information that we
receive from Range Resources regarding its quarterly sampling events with the Railroad
Commission.

Recommendation 5: We will document the costs associated with reviewing any additional
information that we receive from Range Resources regarding its quarterly sampling events and
coordinating with the Railroad Commission.




14-P-0044                                                                                      24
Responses to Recommendations Table

 No. Recommendation                   High-Level Intended               Estimated Completion
                                      Corrective Action(s)              by Quarter and FY

 1     Collect and evaluate the       We have re-evaluated quality  First Quarter FY 2014
       testing results being          assurance information         upon receipt of any
       provided by Range              associated with Range         additional information.
       Resources to determine         Resources’ analyzed quarterly
       whether the data is of         sampling data and sent the
       sufficient quality and         attached letter to Range
       utility.                       Resources’ attorney. We will
                                      promptly share any additional
                                      information that we receive
                                      from Range Resources with the
                                      Railroad Commission.


 2     Using quality data collected   As noted above, the well of       No further action
       and analyzed, determine        primary concern has been          proposed.
       whether an ISE still exists    disconnected from the home
       at the original residential    thereby addressing explosivity
       wells that prompted the        concerns, and it is no longer a
       emergency order and at         source of drinking water. EPA
       other wells where Range        retains the authority to take
       Resources has identified       action if circumstances change
       contamination.                 in Parker County and the
                                      Railroad Commission fails to
                                      act as the lead state agency
                                      charged with overseeing oil-
                                      and gas-related activities in
                                      Texas.

 3     Advise residents at sites of   We have shared all of Range       First Quarter FY 2014
       evaluated wells of the         Resources’ analyzed quarterly     upon receipt of any
       present status of the          sampling data with the            additional information.
       contamination and of any       Railroad Commission. We will
       Region 6 planned actions.      promptly share any additional
                                      information that we receive
                                      from Range Resources
                                      regarding its quarterly
                                      sampling events with the
                                      Railroad Commission.




14-P-0044                                                                                         25
  No. Recommendation                  High-Level Intended              Estimated Completion
                                      Corrective Action(s)             by Quarter and FY

  4     As needed, work with the      We have shared all of Range     First Quarter FY 2014
        RRC to ensure appropriate     Resources’ analyzed quarterly upon receipt of any
        action is taken to respond    sampling data with the          additional information.
        to any ISE at the sites       Railroad Commission. The
        where contamination was       analyzed quarterly sampling
        identified. If the data and   data indicate that there is not
        information available to      widespread groundwater
        Region 6 indicate no ISE,     contamination of concern in
        document and                  the wells that were sampled in
        communicate that decision.    Parker County. We will
                                      promptly share any additional
                                      information that we receive
                                      from Range Resources with the
                                      Railroad Commission.

  5     Document the costs and        We will document any costs       Second Quarter FY
        resources invested to         and resources expended to        2014.
        complete the work included    address these
        in these recommendations.     recommendations.


Contact Information

If you have any questions or concerns regarding this response, please contact the Region 6 Audit
Liaison, Susan Jenkins, at (214) 665-6578.

Attachments

cc: 	   Charles Sheehan, OIG
        Samuel Coleman, R6
        John Blevins, R6/CAED
        Stephen Gilrein, R6/CAED
        Jerry Saunders, R6/CAED
        Steven Chester, OECA
        Susan Shinkman, OECA/OCE
        Pamela Mazakas, OECA/OCE
        Andrew Stewart, OECA/OCE
        Timothy Sullivan, OECA/OCE
        Lauren Kabler, OECA/OCE
        Gwendolyn Spriggs, OECA/OAP




14-P-0044                                                                                       26
                                               Appendix B

            Agency Letter to Range Resources




14-P-0044                                              27
14-P-0044   28
                                                                                             Appendix C

                  OIG Response to Agency Comments

                                                                       EPA
                                                                    Corrective       OIG Assessment of
  OIG Recommendation                   EPA Response                   Action           EPA Response
1. Collect and evaluate        “We have re-evaluated             First Quarter    We agree with the EPA’s
the testing results being      quality assurance                 FY 2014 upon     proposed actions.
provided by Range              information                       receipt of any   This recommendation is
Resources to determine         associated with Range             additional       resolved.
whether the data are of        Resources' analyzed               information.
sufficient quality and         quarterly sampling data and
utility.                       sent the attached letter to
                               Range Resources' attorney.
                               We will promptly share any
                               additional information that
                               we receive from Range
                               Resources with the Railroad
                               Commission.”
                               NOTE: In a subsequent
                               communication, EPA agreed
                               to take appropriate steps
                               should any of the
                               information it receives
                               indicate a potentially
                               significant data quality
                               concern.
2. Using quality data          “As noted above, the well of      First Quarter    The OIG accepts the
collected and analyzed,        primary concern has been          FY 2014.         agency’s interpretation
determine whether an ISE       disconnected from the home                         that the well of primary
still exists at the original   thereby addressing                                 concern has been
residential wells that         explosivity concerns, and it                       disconnected from the
prompted the emergency         is no longer a source of                           home, thereby addressing
order and at other wells       drinking water. EPA retains                        explosivity concerns, and
where Range Resources          the authority to take action if                    it is no longer a source of
has identified                 circumstances change in                            drinking water.
contamination.                 Parker County and the
                               Railroad Commission fails to                       We agree with the EPA’s
                               act as the lead state agency                       proposed actions.
                               charged with overseeing oil-                       This recommendation is
                               and gas-related activities in                      resolved.
                               Texas.”
                               NOTE: In a subsequent
                               communication, EPA agreed
                               to take appropriate steps
                               should any of the sampling
                               data collected by Range
                               Resources reveal imminent
                               and substantial risks to other
                               drinking wells in the involved
                               area.




14-P-0044                                                                                                 29
                                                                   EPA
                                                                Corrective       OIG Assessment of
  OIG Recommendation                 EPA Response                 Action           EPA Response
3. Advise residents at        “We have shared all of         First Quarter    We agree with the EPA’s
sites of evaluated wells of   Range Resources’ analyzed      FY 20014 upon    proposed actions.
the present status of the     quarterly sampling data with   receipt of any   This recommendation is
contamination and of any      the Railroad Commission.       additional       resolved.
Region 6 planned actions.     We will promptly share any     information.
                              additional information that
                              we receive from Range
                              Resources regarding its
                              quarterly sampling events
                              with the Railroad
                              Commission.”
4. As needed, work with       “We have shared all of         First Quarter    We agree with the EPA’s
the RRC to ensure             Range Resources’ analyzed      FY 2014 upon     proposed actions.
appropriate action is         quarterly sampling data with   receipt of any   This recommendation is
taken to respond to any       the Railroad Commission.       additional       resolved.
ISE at the sites where        The analyzed quarterly         information.
contamination was             sampling data indicate that
identified. If the data and   there is not widespread
information available to      groundwater contamination
Region 6 indicate no ISE,     of concern in the wells that
document and                  were sampled in Parker
communicate that              County. We will promptly
decision.                     share any additional
                              information that we receive
                              from Range Resources with
                              the Railroad Commission.”
5. Document the costs         “We will document any costs    Second Quarter
and resources invested to     and resources expended to      FY 2014.         We agree with the EPA’s
complete the work             address these                                   proposed actions.
included in these             recommendations.”                               This recommendation is
recommendations.                                                              resolved.




14-P-0044                                                                                           30
                                                                              Appendix D

                                   Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Regional Administrator, Region 6
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Deputy Regional Administrator, Region 6
Director, Office of Regional Operations
Region 6 Public Affairs Office
Region 6 Director for Enforcement
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Region 6




14-P-0044                                                                             31
